Philip D. Anker

July 15, 2020

+1 212 230 8890 (t)
+1 212 230 8888 (f)
philip.anker@wilmerhale.com

VIA ECF
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Deutsche Bank Trust Company Americas, et al. v. Robert R. McCormick
Foundation, et al., No. 20-8

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was docketed on July 9,
2020, and any response is currently due on August 10, 2020. Pursuant to Rule 30.4, respondents
SAL Equity Trading, GP f/k/a Susquehanna Capital Group and Susquehanna Investment Group,
joined by other respondents on the Tribune Shareholder-Defendants’ Executive Committee in the
underlying actions, respectfully request an extension of time to and including August 26, 2020 in
which to file any response to the petition.
We are requesting an extension due to the press of other business, the disruption caused
by the ongoing COVID-19 pandemic, and the need to review and possibly respond to an
expected amicus brief in support of the petition. This is the first request for an extension.
Petitioners consent to this request.
Thank you for your consideration of this request.

Respectfully submitted,

/s/ Philip D. Anker
Philip D. Anker

cc:

Lawrence Robbins, Counsel of Record for Petitioners (by ECF and Email)
Counsel for Other Defendants on the Tribune Shareholder-Defendants’ Executive
Committee (by ECF or Email)

